55 Elm Street
P.O. Box 120
Ha rtford, CT 06 141-01 20

WILLIAM TONG
ATTORNEY GENERAL

Office of the Attorney General

State of Connecticut

Tel: (860) 808-5020
Fax: (860) 808-5347

December 24, 2019
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Connecticut Fine Wine and Spirits, LLC, dba Total Wine & More
v. Commissioner Michelle H. Seagull, et al., No. 19-710

Dear Attorney Harris:
I represent Defendants-Respondents, Commissioner of the
Connecticut Department of Consumer Protection Michelle H. Seagull
and Director of the Connecticut Division of Liquor Control John Suchy
("State Respondents"), in the above-captioned case. Under Rule 37.3(a),
State Respondents consent to the filing of amicus curiae briefs in
support of either or of neither party, provided any such briefs are timely
filed and otherwise comply with this Court's Rules.

Respectfully submitted,

Isl Robert J. Deichert
Robert J. Deichert
Assistant Attorney General
Counsel of Record for State
Respondents

An Affirmative Action/Equal Opportun;ty Employer

